Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


TRIPLE-S SALUD UNDERSTATED
ITS MEDICARE SEGMENT ASSETS
       AND OVERSTATED
   MEDICARE’S SHARE OF THE
      EXCESS LIABILITIES
     AS OF MARCH 1, 2009



  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Patrick J. Cogley
                                               Regional Inspector General

                                                        April 2013
                                                      A-07-12-00395
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                at https://oig.hhs.gov/

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 Triple-S Salud, a terminated Medicare contractor, understated the Medicare segment
 pension assets by $371,181 as of March 1, 2009. In addition, Triple-S Salud overstated
 Medicare’s share of excess pension liabilities by $68,601 as a result of the segment
 closing adjustment on March 1, 2009.


WHY WE DID THIS REVIEW

Medicare contractors are required to segment their Medicare segment pension plan assets based
on the requirements of their Medicare contracts and the Cost Accounting Standards (CAS). The
Centers for Medicare & Medicaid Services (CMS) incorporated specific segmentation
requirements into the Medicare contracts beginning with fiscal year 1988. In addition, in
situations such as contract terminations, the Medicare contracts require contractors to identify
excess Medicare pension assets/liabilities, in accordance with the CAS. Previous Office of
Inspector General reviews found that Medicare contractors did not always correctly identify and
update the segmented pension assets.

The objectives of this review were to determine whether Triple-S Salud (Triple-S) complied with
Federal requirements and the Medicare contracts’ pension segmentation requirements when
(1) implementing the prior audit recommendation to decrease the Medicare segment pension
assets as of January 1, 2007, (2) updating the Medicare segment’s pension assets from January 1,
2007, to March 1, 2009, and (3) determining Medicare’s share of the Medicare segment excess
pension liabilities as a result of the termination of the Medicare contracts.

BACKGROUND

Triple-S administered Medicare Part B operations under cost reimbursement contracts with CMS
until the contractual relationship was terminated effective March 1, 2009.

We performed a prior pension segmentation audit at Triple-S (A-07-08-00266, issued July 28,
2009), which brought the Medicare segment pension assets to January 1, 2007. We
recommended that Triple-S decrease its Medicare segment pension assets by $68,572 and, as a
result, recognize $2,084,729 as the Medicare segment pension assets as of January 1, 2007.

In addition, upon the termination of its Medicare contracts, Triple-S identified Medicare’s share
of the Medicare segment excess pension liabilities to be $2,423,637.

WHAT WE FOUND

Triple-S did not fully implement the prior audit recommendation to recognize $2,084,729 as the
Medicare segment pension assets as of January 1, 2007. In addition, Triple-S did not correctly
update the Medicare segment pension assets from January 1, 2007, to March 1, 2009, in
accordance with Federal requirements. Triple-S identified Medicare segment pension assets of
$1,294,834 as of March 1, 2009; however, we determined that the Medicare segment pension

Triple-S Pension Segmentation (A-07-12-00395)                                                       i
assets were $1,666,015. Therefore, Triple-S understated the Medicare segment pension assets by
$371,181.

Regarding our third objective, Triple-S computed Medicare’s share of the Medicare segment
excess pension liabilities to be $2,423,637 as of March 1, 2009 (the effective date of the
termination of Triple-S’s Medicare contract); however, we determined that Medicare’s share of
the Medicare segment excess pension liabilities was $2,355,036 as of that date. Triple-S
overstated Medicare’s share of excess pension liabilities by $68,601, because of differences in
the identification of the Medicare segment participants and the Medicare segment pension assets.

WHAT WE RECOMMEND

We recommend that Triple-S:

    •   increase Medicare segment pension assets as of March 1, 2009, by $371,181 and
        recognize $1,666,015 as the Medicare segment pension assets and

    •   decrease Medicare’s share of the Medicare segment excess pension liabilities by $68,601
        and submit for reimbursement $2,355,036 as Medicare’s share of the Medicare segment
        excess pension liabilities due to the segment closing calculation.

AUDITEE COMMENTS

In written comments on our draft report, Triple-S concurred with both of our recommendations.
Regarding our second recommendation, though, Triple-S referred to an earlier audit that we had
conducted of this entity (Review of Pension Costs Claimed for Medicare Reimbursement by
Triple-S, Inc., for Fiscal Years 1988 Through 2006 (A-07-08-00268), issued July 28, 2009).
Triple-S discussed the relationship between the findings in these two reports and said that if the
finding in our earlier report prevails “… even after having established the need to perform a
segment closing calculation at the time of the contract termination, we do not concur with such
calculation since the implementation of the [recommendation from the earlier report] will
definitely increase – by the same amount indicated in that report – the segment excess pension
liabilities.” Triple-S also described corrective action that it planned to implement if it were the
case that the earlier report is superseded by this current review.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing Triple-S’s comments, we maintain that our findings and recommendations are
valid. The final assets used to compute the audited segment closing adjustment reflect prior
period costs and contributions determined in accordance with the CAS. We based our
calculations of these prior period costs and contributions on the calculations we developed for
the current reviews and on the calculations we used in our earlier reviews of Triple-S: both the
prior segmentation review (A-07-08-00266) mentioned in “Background” and our objective, and
the prior pension costs claimed review (A-07-08-00268) to which Triple-S referred in its
comments. The calculations and findings from those prior reviews remain valid. Thus, this
current report does not, as Triple-S suggested, supersede the earlier pension costs claimed audit

Triple-S Pension Segmentation (A-07-12-00395)                                                         ii
report (A-07-08-00268). Accordingly, and in light of the fact that Triple-S concurred with our
findings and our calculations, the concerns that it raised in its comments, about the relationship
between the findings in those earlier reviews and the findings in this current review, relate not to
this audit report per se but rather to Triple-S’s settlement of these costs with CMS.




Triple-S Pension Segmentation (A-07-12-00395)                                                      iii
                                                    TABLE OF CONTENTS

                                                                                                                                         Page

INTRODUCTION.................................................................................................................. 1

           Why We Did This Review ......................................................................................... 1

           Objectives.................................................................................................................... 1

           Background ................................................................................................................ 1

           How We Conducted This Review ............................................................................. 1

FINDINGS .............................................................................................................................. 2

           Prior Audit Recommendation................................................................................... 3

           Update of Medicare Segment Pension Assets .......................................................... 3
                 Contributions and Transferred Prepayment Credits Understated .................... 3
                 Benefit Payments Understated ......................................................................... 3
                 Net Transfers Overstated ................................................................................. 3
                 Earnings, Net Expenses Overstated ................................................................. 4

           Medicare Segment Closing Adjustment................................................................... 4
                 Medicare Segment Excess Pension Liabilities as of March 1, 2009 ............... 4
                 Medicare’s Share of the Medicare Segment Excess Pension Liabilities ......... 4

RECOMMENDATIONS....................................................................................................... 5

AUDITEE COMMENTS ...................................................................................................... 5

OFFICE OF INSPECTOR GENERAL RESPONSE......................................................... 6

APPENDIXES

    A: Audit Scope and Methodology .................................................................................. 7

    B: Statement of Market Value of Pension Assets for Triple-S
         for the Period January 1, 2007, to March 1, 2009 ............................................... 9

    C: Federal Requirements Related to Pension
        Segmentation and Segment Closing Adjustment .............................................. 11

    D: Calculation of Aggregate Medicare Percentage ................................................... 14



Triple-S Pension Segmentation (A-07-12-00395)                                                                                                 iv
   E: Auditee Comments .................................................................................................. 15




Triple-S Pension Segmentation (A-07-12-00395)                                                                                  v
                                          INTRODUCTION

WHY WE DID THIS REVIEW

Medicare contractors are required to segment their Medicare segment pension plan assets based
on the requirements of their Medicare contracts and the Cost Accounting Standards (CAS). The
Centers for Medicare & Medicaid Services (CMS) incorporated specific segmentation
requirements into the Medicare contracts beginning with fiscal year 1988. In addition, in
situations such as contract terminations, the Medicare contracts require contractors to identify
excess Medicare pension assets/liabilities, in accordance with the CAS. Previous Office of
Inspector General reviews found that Medicare contractors did not always correctly identify and
update the segmented pension assets.

OBJECTIVES

Our objectives were to determine whether Triple-S Salud (Triple-S) complied with Federal
requirements and the Medicare contracts’ pension segmentation requirements when
(1) implementing the prior audit recommendation to decrease the Medicare segment pension
assets as of January 1, 2007, (2) updating the Medicare segment’s pension assets from January 1,
2007, to March 1, 2009, and (3) determining Medicare’s share of the Medicare segment excess
pension liabilities as a result of the termination of the Medicare contracts.

BACKGROUND

Triple-S administered Medicare Part B operations under cost reimbursement contracts with CMS
until the contractual relationship was terminated effective March 1, 2009.

We performed a prior pension segmentation audit at Triple-S (A-07-08-00266, issued July 28,
2009), which brought the Medicare segment pension assets to January 1, 2007. We
recommended that Triple-S decrease its Medicare segment pension assets by $68,572 and, as a
result, recognize $2,084,729 as the Medicare segment pension assets as of January 1, 2007.

In addition, upon the termination of its Medicare contracts, Triple-S identified Medicare’s share
of the Medicare segment excess pension liabilities to be $2,423,637.

HOW WE CONDUCTED THIS REVIEW

We reviewed Triple-S’s implementation of the prior audit recommendation; identification of its
Medicare segment; update of Medicare segment assets from January 1, 2007, to March 1, 2009;
and the Medicare segment’s closing calculation as of March 1, 2009.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Triple-S Pension Segmentation (A-07-12-00395)                                                       1
Appendix A contains details of our audit scope and methodology.

                                                FINDINGS

Triple-S did not fully implement the prior audit recommendation to recognize $2,084,729 as the
Medicare segment pension assets as of January 1, 2007. In addition, Triple-S did not correctly
update the Medicare segment pension assets from January 1, 2007, to March 1, 2009, in
accordance with Federal requirements. Triple-S identified Medicare segment pension assets of
$1,294,834 as of March 1, 2009; however, we determined that the Medicare segment pension
assets were $1,666,015. Therefore, Triple-S understated the Medicare segment pension assets by
$371,181.

Appendix B presents details of the Medicare segment’s pension assets from January 1, 2007, to
March 1, 2009, as determined during our audit. Table 1 below summarizes the audit adjustments
required to update Medicare segment pension assets in accordance with Federal requirements.

                          Table 1: Summary of Audit Adjustments
                                                 Per Audit    Per Triple-S              Difference
Prior Audit Recommendation                        $2,084,729    $2,153,301               ($68,572)
  Asset adjustment at December 31, 2007               0             65,892                   65,892
Net Prior Audit Adjustment                         2,084,729     2,087,409                  (2,680)

Update of Medicare Segment Assets
  Contributions and Prepayment Credits                     1,478,607        1,463,087          15,520
  Benefit Payments                                           489,474          488,336         (1,138)
  Net Transfers Out                                        (618,119)        (997,803)        379,684
  Earnings, Net Expenses                                   (789,728)        (769,523)       (20,205)
Understatement of Medicare Segment Assets                                                  $371,181

Regarding our third objective, the CAS requires that a segment closing adjustment be made to
recognize Medicare’s share of the Medicare segment excess pension liabilities as a result of the
termination of the Medicare contracts. Triple-S computed Medicare’s share of the Medicare
segment excess pension liabilities to be $2,423,637 as of March 1, 2009 (the effective date of the
termination of Triple-S’s Medicare contract); however, we determined that Medicare’s share of
the Medicare segment excess pension liabilities was $2,355,036 as of that date. Triple-S
overstated Medicare’s share of excess pension liabilities by $68,601, because of differences in
the identification of the Medicare segment participants and the Medicare segment pension assets.




Triple-S Pension Segmentation (A-07-12-00395)                                                    2
PRIOR AUDIT RECOMMENDATION

Triple-S did not fully implement the prior audit recommendation (A-07-08-00266) which
recommended that Triple-S decrease Medicare segment pension assets by $68,572 and recognize
$2,084,729 of Medicare segment pension assets as of January 1, 2007. However, Triple-S made
an asset adjustment of $65,892 to decrease the Medicare segment pension assets at December 31,
2007. Therefore, Triple-S overstated the Medicare segment pension assets by $2,680 by not
fully implementing the prior audit recommendation.

UPDATE OF MEDICARE SEGMENT PENSION ASSETS

The Medicare contracts require Medicare contractors to update the Medicare segment pension
assets yearly in accordance with the CAS. The CAS requires that the assets base be adjusted by
contributions, permitted unfunded accruals, income, benefit payments, and expenses.

For details on the Federal requirements and the relevant language of the Medicare contracts, see
Appendix C.

The following are our findings regarding the update on the Medicare segment pension assets
from January 1, 2007, to March 1, 2009.

Contributions and Transferred Prepayment Credits Understated

The audited contributions and transferred prepayment credits are based on the assignable pension
costs. In compliance with the CAS, we applied prepayment credits first to current-year
assignable pension costs (because the credits were available at the beginning of the year) and
then updated any remaining credits with interest to the next measurement (valuation) date. We
then allocated contributions to assigned pension costs, as needed, as of the date of deposit. For
additional details on these Federal requirements, see Appendix C.

Triple-S understated contributions and transferred prepayment credits by $15,520 for the
Medicare segment. The understatement occurred primarily because of differences in the asset
base used to compute the assignable pension costs. As a result, Triple-S understated
the Medicare segment pension assets by $15,520.

Benefit Payments Understated

Triple-S understated benefit payments by $1,138 because Triple-S incorrectly excluded one
benefit payment from a Medicare segment participant in 2007.

Net Transfers Overstated

Triple-S overstated net transfers out of the Medicare segment by $379,684. The overstatement
occurred primarily because in 2008 Triple-S incorrectly transferred Medicare segment
participants out of the Medicare segment. This overstatement of the net transfer adjustment
resulted in an understatement of the Medicare segment assets by $379,684.

Triple-S Pension Segmentation (A-07-12-00395)                                                      3
Table 2 shows the differences between our calculations and Triple-S’s calculations of net
transfers out of the Medicare segment for the relevant timeframe.

                                    Table 2: Net Transfers Out of
                                        the Medicare Segment
                                    Per Audit Per Triple-S Difference
                           2007     ($232,033)    ($232,194)      (161)
                           2008      (383,367)     (762,890) (379,523)
                           2009        (2,719)       (2,719)        (0)
                           Total    ($618,119)    ($997,803) ($379,684)

Earnings, Net Expenses Overstated

Triple-S understated investment earnings, less administrative expenses, by $20,205 for the
Medicare segment, because it used incorrect contributions and transferred prepayment credits,
benefit payments, and net transfers (all discussed above), to develop the Medicare segment
pension asset base. In our audited update, we allocated earnings, net expenses based on the
applicable CAS requirements. For details on applicable Federal requirements, see Appendix C.

MEDICARE SEGMENT CLOSING ADJUSTMENT

Medicare Segment Excess Pension Liabilities as of March 1, 2009

Federal regulations (Appendix C) require Triple-S to compute a Medicare segment closing
adjustment as a result of the termination of its Medicare contract. Triple-S identified $2,423,637
in Medicare segment excess pension liabilities as of March 1, 2009. However, we calculated the
Medicare segment excess pension liabilities to be $2,355,036 as of that date. (It is necessary to
calculate the pension assets and liabilities as well as any adjustments for the Medicare segment
before calculating Medicare’s share.) Therefore, Triple-S overstated the excess pension
liabilities by $68,601. The overstatement occurred because Triple-S (a) incorrectly identified the
final Medicare segment participants as of March 1, 2009, and (b) understated the Medicare
segment’s final market value of pension assets as of March 1, 2009. The development of excess
liabilities was used to identify Medicare’s share of Medicare segment’s excess pension liabilities.

Medicare’s Share of the Medicare Segment Excess Pension Liabilities

Triple-S calculated the aggregate Medicare percentage (that is, the percentage that reflects
Medicare’s share of the Medicare segment excess pension liabilities) as 100 percent. We
calculated the aggregate Medicare percentage (see Appendix D) using the Medicare segment
pension costs developed during the prior pension costs claimed reports (A-07-08-00268) and
current pension costs claimed (A-07-12-00396) audits as required by the CAS. As shown in
Table 3 on the following page, we agreed with Triple-S’s calculation that the aggregate Medicare
percentage was 100 percent. For details on the Federal requirements regarding the aggregate
Medicare percentage, see Appendix C.



Triple-S Pension Segmentation (A-07-12-00395)                                                     4
Triple-S calculated $2,423,637 as Medicare’s share of the excess pension liabilities as of
March 1, 2009; however, we determined that Medicare’s share of the excess pension liabilities
was $2,355,036 as of March 1, 2009. The difference, $68,601, was unallowable for Medicare
reimbursement. Triple-S overstated Medicare’s share of the excess Medicare segment pension
liabilities because it overstated the Medicare segment’s excess pension liabilities (as discussed
above).

Table 3 below shows our calculation of Medicare’s share of the excess pension liabilities.

             Table 3: Medicare’s Share of Excess Pension Liabilities
                         Excess Medicare        Aggregate       Excess Liabilities
                             Segment            Medicare          Attributable to
                          Liabilities (A)    Percentage (B)     Medicare (A x B)
Per Audit                      $2,335,036               100%            $2,335,036
Per Triple-S                     2,423,637              100%             2,423,637
 Difference                                                              ($68,601)

                                       RECOMMENDATIONS

We recommend that Triple-S:

    •   increase Medicare segment pension assets as of March 1, 2009, by $371,181 and
        recognize $1,666,015 as the Medicare segment pension assets and

    •   decrease Medicare’s share of the Medicare segment excess pension liabilities by $68,601
        and submit for reimbursement $2,335,036 as Medicare’s share of the Medicare segment
        excess pension liabilities due to the segment closing calculation.

AUDITEE COMMENTS

In written comments on our draft report, Triple-S concurred with both of our recommendations.
Regarding our second recommendation, though, Triple-S referred to an earlier audit that we had
conducted of this entity (Review of Pension Costs Claimed for Medicare Reimbursement by
Triple-S, Inc., for Fiscal Years 1988 Through 2006 (A-07-08-00268), issued July 28, 2009).
Triple-S discussed the relationship between the findings in these two reports and said that if the
finding in our earlier report prevails “… even after having established the need to perform a
segment closing calculation at the time of the contract termination, we do not concur with such
calculation since the implementation of the [recommendation from the earlier report] will
definitely increase – by the same amount indicated in that report – the segment excess pension
liabilities.” Triple-S also described corrective action that it planned to implement if it were the
case that the earlier report is superseded by this current review.

Triple-S’s comments are included in their entirety as Appendix E.




Triple-S Pension Segmentation (A-07-12-00395)                                                         5
OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing Triple-S’s comments, we maintain that our findings and recommendations are
valid. The final assets used to compute the audited segment closing adjustment reflect prior
period costs and contributions determined in accordance with the CAS. We based our
calculations of these prior period costs and contributions on the calculations we developed for
the current reviews and on the calculations we used in our earlier reviews of Triple-S: both the
prior segmentation review (A-07-08-00266) mentioned in “Background” and our objective, and
the prior pension costs claimed review (A-07-08-00268) to which Triple-S referred in its
comments. The calculations and findings from those prior reviews remain valid. Thus, this
current report does not, as Triple-S suggested, supersede the earlier pension costs claimed audit
report (A-07-08-00268). Accordingly, and in light of the fact that Triple-S concurred with our
findings and our calculations, the concerns that it raised in its comments, about the relationship
between the findings in those earlier reviews and the findings in this current review, relate not to
this audit report per se but rather to Triple-S’s settlement of these costs with CMS.




Triple-S Pension Segmentation (A-07-12-00395)                                                      6
                      APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed Triple-S’s implementation of the prior audit recommendation; identification of its
Medicare segment; update of Medicare segment assets from January 1, 2007, to March 1, 2009;
and the Medicare segment’s closing calculation as of March 1, 2009.

Achieving our objective did not require us to review Triple-S’s overall internal control structure.
We reviewed controls relating to the identification of the Medicare segment, the update of the
Medicare segment’s assets, and the Medicare segment’s final assets and liabilities to ensure
adherence to the Medicare contracts, CAS 412, and CAS 413.

We completed our audit work in November 2012

METHODOLOGY

To accomplish our objectives, we took the following steps:

    •    We reviewed the portions of the Federal Acquisition Regulation, CAS, and the
         Medicare contracts applicable to this audit.

    •    We reviewed the annual actuarial valuation reports prepared by Triple-S’s actuarial
         consulting firms, which included the pension plan’s assets, liabilities, normal costs,
         contributions, benefit payments, investment earnings, and administrative expenses. We
         used this information to calculate the Medicare segment assets.

    •    We reviewed the Medicare segment closing calculation prepared by Triple-S’s staff and
         its actuarial consulting firms.

    •    We obtained and reviewed the pension plan documents and Department of
         Labor/Internal Revenue Service Forms 5500 used in calculating the Medicare segment
         assets.

    •    We interviewed Triple-S staff responsible for identifying the Medicare segment to
         determine whether the segment was properly identified in accordance with the Medicare
         contracts.

    •    We reviewed Triple-S’s accounting records to verify the segment identification and
         benefit payments made to the Medicare segment.

    •    We reviewed the prior segmentation audit performed at Triple-S (A-07-08-00266) to
         determine the beginning market value of assets.

    •    We provided the CMS Office of the Actuary with the actuarial information necessary
         for it to calculate the Medicare segment pension assets from January 1, 2007, to

Triple-S Pension Segmentation (A-07-12-00395)                                                     7
         March 1, 2009, and the Medicare segment’s excess pension liabilities as of
         March 1, 2009.

    •    We reviewed the CMS actuaries’ methodology and calculations.

We performed this review in conjunction with our audit of Triple-S’s pension costs claimed for
Medicare reimbursement (A-07-12-00396) and used the information obtained during that audit in
this review.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Triple-S Pension Segmentation (A-07-12-00395)                                                  8
                APPENDIX B: STATEMENT OF MARKET VALUE OF PENSION ASSETS
                                      FOR TRIPLE-S
                     FOR THE PERIOD JANUARY 1, 2007, TO MARCH 1, 2009

                                                                                          Medicare
                  Description                        Total Company     “Other” Segment    Segment

     Assets January 1, 2007                     1/      $64,520,111        $62,435,382      $2,084,729

     Prepayment Credits                         2/                0           (708,934)       708,934
     Contributions                              3/        4,000,000          4,000,000              0
     Earnings                                   4/        4,652,446          4,449,151        203,295
     Benefit Payments                           5/       (5,140,337)        (4,966,981)      (173,356)
     Expenses                                   6/         (336,196)          (321,505)       (14,691)
     Transfers                                  7/                0            232,033       (232,033)

     Assets January 1, 2008                             $67,696,024        $65,119,146     $2,576,878

     Prepayment Credits                                           0           (650,770)       650,770
     Contributions                                        9,000,000          9,000,000              0
     Earnings                                           (16,237,041)       (15,455,012)      (782,029)
     Benefit Payments                                    (7,926,154)        (7,610,036)      (316,118)
     Expenses                                              (320,485)          (305,049)       (15,436)
     Transfers                                                    0            383,367       (383,367)

     Assets January 1, 2009                             $52,212,344        $50,481,646     $1,730,698

     Prepayment Credits                                           0           (118,903)       118,903
     Contributions                                                0                  0              0
     Earnings                                            (4,949,805)        (4,771,191)      (178,614)
     Benefit Payments                                    (1,911,415)        (1,911,415)             0
     Expenses                                               (62,430)           (60,177)        (2,253)
     Transfers                                                    0              2,719         (2,719)

     Assets March 1, 2009                               $45,288,694        $43,622,679     $1,666,015
     Per Triple-S                               8/       45,288,694         43,993,860      1,294,834
     Asset Variance                             9/                0            371,181       (371,181)


Triple-S Pension Segmentation (A-07-12-00395)                                                        9
ENDNOTES

  1/
       We determined the Medicare segment pension assets as of January 1, 2007, based on our prior segmentation
       audit of Triple-S (A-07-08-00266). The amounts shown for the “Other” segment represent the difference
       between the Total Company and the Medicare segment. All pension assets are shown at market value.

  2/ Prepayment credits represent funds available to satisfy future funding requirements and are applied to future
     funding requirements before current year contributions in order to avoid incurring unallowable interest.
     Prepayment credits are transferred to the Medicare segment as needed to cover funding requirements.

  3/ We obtained Total Company contribution amounts from the actuarial valuation reports and Department of
     Labor/Internal Revenue Service Forms 5500. We allocated Total Company contributions to the Medicare
     segment based on the ratio of the Medicare segment funding target divided by the Total Company funding
     target. Contributions in excess of the funding targets were treated as prepayment credits and accounted for
     in the “Other” segment until needed to fund pension costs in the future.

  4/ We obtained investment earnings from the actuarial valuation reports. We allocated investment earnings
     based on the ratio of the segment’s weighted average value (WAV) of assets to Total Company WAV of
     assets as required by the CAS.

  5/ We based the Medicare segment’s benefit payments on actual payments to Medicare retirees. We obtained
     the benefit payments from documents provided by Triple-S.

  6/ We allocated administrative expenses to the Medicare segment in proportion to investment earnings.

  7/ We identified participant transfers between segments by comparing valuation data files provided by Triple-
     S. Asset transfers were equal to the actuarial liability determined under the accrued benefit cost method in
     accordance with the CAS.

  8/ We obtained total asset amounts as of March 1, 2009, from documents prepared by Triple-S’s actuarial
     consulting firm and trust statements provided by Triple-S.

  9/ The asset variance represents the difference between our calculation of Medicare segment pension assets
     and Triple-S’s calculation of the Medicare segment pension assets.




Triple-S Pension Segmentation (A-07-12-00395)                                                                  10
          APPENDIX C: FEDERAL REQUIREMENTS RELATED TO PENSION
             SEGMENTATION AND SEGMENT CLOSING ADJUSTMENT

PENSION SEGMENTATION

Federal Regulations

Federal regulations (CAS 413.50(c)(8)) require that an adjustment be made for transfers
(participants who enter or leave the segment) if the transfers materially affect the segment’s ratio
of pension plan assets to actuarial accrued liabilities.

Federal regulations (CAS 412.50(a)(4)) require that contributions in excess of the pension cost
assigned to the period be recognized as prepayment credits and accumulated at the assumed
valuation interest rate until applied to future period costs. Prepayment credits that have not been
applied to fund pension costs are excluded from the value of assets used to compute pension
costs.

Federal regulations (CAS 413.50(c)(7)) require that the asset base be adjusted by contributions,
permitted unfunded accruals, income, benefit payments, and expenses. For plan years beginning
after March 30, 1995, the CAS requires investment income and expenses to be allocated among
segments based on the ratio of the segment’s WAV of assets to Total Company WAV of assets.

Medicare Contracts

The Medicare contracts identify a Medicare segment as:

        … any organizational component of the contractor, such as a division,
        department, or other similar subdivision, having a significant degree of
        responsibility and accountability for the Medicare contract/agreement, in which:

            1. The majority of the salary dollars is allocated to the Medicare
               agreement/contract; or,

            2. Less than a majority of the salary dollars are charged to the Medicare
               agreement/contract, and these salary dollars represent 40% or more of the
               total salary dollars charged to the Medicare agreement/contract.

Furthermore, the Medicare contracts state that “… the pension assets allocated to each Medicare
Segment shall be adjusted in accordance with CAS 413.50(c)(7).”




Triple-S Pension Segmentation (A-07-12-00395)                                                     11
SEGMENT CLOSING ADJUSTMENT

Federal Regulations

Federal regulations (CAS 413.50(c)(12)) state:

        If a segment is closed, if there is a pension plan termination, or if there is a
        curtailment of benefits, the contractor shall determine the difference between the
        actuarial liability for the segment and the market value of the assets allocated to
        the segment, irrespective of whether or not the pension plan is terminated. The
        difference between the market value of the assets and the actuarial accrued
        liability for the segment represents an adjustment of previously-determined
        pension costs.

        (i) The determination of the actuarial accrued liability shall be made using the
        accrued benefit cost method. The actuarial assumptions employed shall be
        consistent with the current and prior long term assumptions used in the
        measurement of pension costs ….

        (ii) … The market value of the assets shall be reduced by the accumulated value
        of prepayment credits, if any. Conversely, the market value of assets shall be
        increased by the current value of any unfunded actuarial liability separately
        identified and maintained in accordance with 9904.412-50(a)(2).

        (iii) The calculation of the difference between the market value of the assets and
        the actuarial accrued liability shall be made as of the date of the event (e.g.,
        contract termination, plan amendment, plant closure) that caused the closing of
        the segment, pension plan termination, or curtailment of benefits. If such a date is
        not readily determinable, or if its use can result in an inequitable calculation, the
        contracting parties shall agree on an appropriate date.

        (iv) Pension plan improvements adopted within 60 months of the date of the event
        which increase the actuarial accrued liability shall be recognized on a prorata
        basis using the number of months the date of adoption preceded the event date.
        Plan improvements mandated by law or collective bargaining agreement are not
        subject to this phase-in.

The methodology for determining the Federal Government’s share of excess pension
assets/liabilities is addressed by CAS 413.50(c)(12)(vi), which states:

        The Government’s share of the adjustment amount determined for a segment shall
        be the product of the adjustment amount and a fraction. The adjustment amount
        shall be reduced for any excise tax imposed upon assets withdrawn from the
        funding agency of a qualified pension plan. The numerator of such fraction shall
        be the sum of the pension plan costs allocated to all contracts and subcontracts
        (including Foreign Military Sales) subject to this Standard during a period of

Triple-S Pension Segmentation (A-07-12-00395)                                                   12
        years representative of the Government’s participation in the pension plan. The
        denominator of such fraction shall be the total pension costs assigned to cost
        accounting periods during those same years. This amount shall represent an
        adjustment of contract prices or cost allowance as appropriate. The adjustment
        may be recognized by modifying a single contract, several but not all contracts, or
        all contracts, or by use of any other suitable technique. [Emphasis added.]

Medicare Contracts

In the event of a contract termination, the Medicare contracts require contractors to follow the
segment closing provision of the CAS. Furthermore, in situations such as contract terminations,
the Medicare contracts require contractors to identify excess Medicare pension assets/liabilities
in accordance with CAS 413.




Triple-S Pension Segmentation (A-07-12-00395)                                                   13
       APPENDIX D: CALCULATION OF AGGREGATE MEDICARE PERCENTAGE

                        Medicare Segment             Total Medicare
                          Pension Costs             Segment Pension                Medicare’s
     FY                Charged to Medicare                Costs                   Aggregate %
      1/                       (A)                         (B)                      (A/B) 2/
    1988                    $17,033                     $17,033
    1989                        0                           0
    1990                        0                           0
    1991                    107,165                     107,165
    1992                    128,170                     128,170
    1993                    144,645                     144,645
    1994                    179,341                     179,341
    1995                    104,016                     104,016
    1996                     60,126                      60,126
    1997                    158,608                     158,608
    1998                     48,296                      48,296
    1999                        0                           0
    2000                        0                           0
    2001                        0                           0
    2002                    197,668                     197,668
    2003                    425,809                     425,809
    2004                    535,107                     535,107
    2005                    621,738                     621,738
    2006                    667,561                     667,561
    2007                    700,514                     700,514
    2008                    665,311                     665,311
    2009                    251,870                     251,870

    Total                    $5,012,978                $5,012,978                   100.00%


ENDNOTES
1/ The aggregate percentage was based on the audited pension costs as determined during the pension
   audits related to the Triple-S Medicare segment. The information for fiscal years 1988 through
   2006 was obtained during our prior audit (A-07-08-00268). The information for fiscal years 2007
   through 2009 was obtained during the current review (A-07-12-00396).

2/ We calculated the aggregate Medicare percentage by dividing the Medicare Segment pension costs
   claimed for Medicare Reimbursement (numerator) by the Total Medicare Segment pension costs
   (denominator) pursuant to CAS 413.


Triple-S Pension Segmentation (A-07-12-00395)                                                    14
                                               APPENDIX E: AUDITEE COMMENTS





                TRIPLE-S                      SALUD               +.'
                                              DlucCrou BlueShle ld o f Puerto Rl<'fl
                                                                                                                                     Pablo Almodovar Scalley
                                                                                                                                     Presid ente   y Principal Oficial Ej ecut ivo




                  March 8, 2013




                  Mr. Patrick J. Cogley
                  Regional Inspector General for Audit Services
                  DHHS- Office of the Inspector General
                  Office of Audit Services, Region VII
                  601 East 12'h Street, Room 0429
                  Kansas City, MO 64106

                                                                                                  Report Number: A-07-12-00395

                  Dear Mr. Cogley:

                  This letter is in response to your letter dated February 7, 2013, enclosing the draft report entitled
                  Triple-S Salud Understated Its Medicare Segment Assets and Overstated Medicare's Share of the Excess
                  Liabilities as of March 1, 2009 (Report Number A-07-12-00395). As requested, the following are our
                  comments to the recommendations set forth in the report, including a statement of concurrence or
                  nonoccurrence, with corresponding explanations and planned corrective actions, in the applicable cases.

                             Recommendation: That Triple-S increase Medicare segment pension assets as of March 1. 2009.
                             by $371.181 and recognize $1,666,015 as the Medicare segment pension assets.

                             We concur with this recommendation. Triple-S Salud will work directly with CMS th is issue
                             because we no longer have access to the CAFM system to revise the FACP.

                             Recommendation: That Triple-S decrease Medicare's share of the Medicare segment excess
                             pension liabilities by $68,601 and submit for reimbursement $2,355,036 as Medicare' s share of
                             the Medicare segment excess pension liabilities due to the segment closing calculation.

                             For the reasons stated below, we concur w ith this recommendation inasmuch as it considers
                             and supersedes the recommendations contained in Report Number A-07-08-00268 (Review of
                             Pension Costs Claimed for Medicare Reimbursement by Triple-S, Inc., for Fiscal Years 1988
                             through 2006)

                             After performing a review of pension costs claimed for Med icare reimbursement by Triple-S for
                             FYs 1988 through 2006, OIG prepared Report Number A-07-08-00268 (hereinafter the OIG First
                             Report), dated July 28, 2009. In t his report OIG concluded that Triple-S cla imed unallowable
                             Medicare pension costs for FYs 1988-2006 primarily beca use Triple-S calculated the pension
                             expense using Financial Accounting Standard (FAS) No. 87, instead of Cost Accounting Standards




      Triple-S Salud, lnc. Concesionario lndependiente de Ia Blue Cross and Blue Shield Association • P.O. Box 363628, San Juan, PR 00936·3628 ·Tel. 787· 749 • 4949 • www.ssspr.com




Triple-S Pension Segmentation (A-07-12-00395)                                                                                                                                          15
                   Page 2
                   Report Number: A-07-12-00395



                   (CAS) 412 and 413. According to the report, this caused that Triple-S claimed $2,945,128 of
                   unallowable pension costs during that period. The report then recommends that Triple-S
                   " reduce its Financial Administrative Cost Proposal (FACP) pension costs by $2,945,128 or refund

                   This amount to CMS"; in addition, it recommends that Triple-S "ensure that future pension cost
                   claims are in accordance with the Medicare contract".

                   Triple-S responded to this report requesting that the implementation of the recommendation
                   contained therein be evaluated in light of the fact that the program had been terminated (due
                   to the implementation of the Medicare Administrative Contractor) and the Medicare segment
                   closed, prior to the date of that OIG First Report. In so indicating, Triple-S specifically stated
                   that:

                            "The findings and recommendations included in the report arise substantially due to
                            [Triple-S] allocating pension cost to the Medicare program using Financial Accounting
                            Standards (FAS) instead of Cost Accounting Standard (CAS).              The allocation
                            methodologies differs among each other primarily in the assumptions used to
                            determine the present pension cost and funding requirements for specific retirements
                            benefits to be paid in the future under a Define Benefit Pension Plan, which is the plan
                            offered by [Triple-S] to its employees. Such temporary assumptions create a temporary
                            difference. which should be reconcile through the years, as the employees approach
                            their eligible retirement date and the actual benefits earned are paid. Furthermore.
                            such temporary difference should be reconciled and/or disposed of, in the event of an
                            early termination of the plan or upon discontinuation of beneficiaries' employment
                            under the Medicare program due to termination of the Medicare contract with
                            [Triple-S]" (emphasis supplied)

                   While performing the audit at issue here (Report No. A-07-12-00395; Triple-S Salud Understated
                   Its Medicare Segment Assets and Overstated Medicare's Share of the Excess Liabilities as of
                   March 1, 2009, hereinafter, the OIG Second Report), OIG evaluated whether the contract
                   termination that took place on March 1, 2009 constituted the "segment closing" of Triple-S
                   Pension Plan for the Medicare Division, pursuant to the definition contained in CAS (48 C.F.R.
                   9904.413-30 (20)). Such determination was of particular importance because the CAS
                   establishes that "if a segment is closed ... the contractor shall determine the difference between
                   the actuarial accrued liability for the segment and the market value of the assets allocated to
                   the segment, irrespective of whether or not the pension plan is terminated. The difference
                   between the market value of the assets and the actuarial accrued liability for the segment
                   represents an adjustment of previously determined pension costs" (48 C.F.R. 9904.413-
                   SO(c)(12)). Therefore, a segment closing entails a final evaluation - as of the date of such
                   closure- of the market value of the assets as well as the actuarial accrued liability to adjust any
                   previously determined pension costs.




Triple-S Pension Segmentation (A-07-12-00395)                                                                            16
                      e3
                   Report Number: A-07-12-00395



                   During the audit, Triple-S answered various OIG questions related to the "segment closing", and
                   explained in detail, why it should be considered that the segment had closed. In addition, in
                   relation to the implementation of the prior recommendation (OIG First Report), Triple-S
                   indicated the following in its letter to OIG dated April20, 2012:

                           "Triple-S has recognized that its compliance with FAS rather than CAS standards was in
                           error. Nonetheless, given that OIG reports were issued subsequently to the termination
                           of the Part B Contract, which significantly affected Triple-S's pension liability, Triple-S
                           requested that there be a global reconciliation of these issues.

                           Specifically, in a response letter dated May 27, 2009 (included as an attachment in the
                           OIG report), Triple-S requested that the final settlement be adjusted to account for the
                           balance in termination costs related to the underfunded pension liability as of the date
                           of contract termination, March 1, 2009. In subsequent correspondence dated June 3,
                           2009, sent to CMS prior to Triple-S's receipt of the OIG reports, Triple-S did not dispute
                           that CAS applies but contended that, even under CAS, the pension plan was
                           underfunded by $2,423,637 as of March 1, 2009, the contract termination date. Triple-S
                           requested reimbursement from CMS in that amount, and explained that it was not
                           revising its Final Administrative Cost Proposal..."

                   In its Second Report -which we are answering through this communication - OIG recognized
                   that a segment closing adjustment was required, pursuant to the cited Section 413 of CAS.
                   However, OIG calculated that the excess pension liabilities as of March 1, 2009, should be
                   $2,355,036, instead of the $2,423,637 that Triple-S had calculated. Finally, and as previously
                   indicated, OIG recommended that Triple-S should submit for reimbursement $2,355,036 as
                   Medicare's share of the Medicare segment excess pension liabilities due to the segment closing
                   calculation.

                   As stated before, we do concur with that calculation and recommendation from the OIG Second
                   Report, as it reflects the reality of the market value of the assets and actuarial liabilities of the
                   segment at the time of its closure. In fact, that is the reality at the time of the segment closing,
                   regardless of how Triple-S had calculated/claimed the pension cost s to CMS in prior years.
                   However, if it is understood that the finding of the OIG First Report prevails even after having
                   established the need to perform a segment closing calculation at the time of the contract
                   termination, we do not concur with such calculation since the implementation of the First
                   Report will definitely increase - by the same amount indicated in that report - the segment
                   excess pension liabilities.




Triple-S Pension Segmentation (A-07-12-00395)                                                                              17
                         4
                     Report Number: A-07-12-00395



                     Finally, if it is established/agreed that the First Report is superseded by the content of the
                     Second Report, we wou ld work the reimbursement directly with CMS because we no longer
                     have access to the CAFM system to revise the FACP.

             If you have any question or concern regarding this response, do not hesitate to contact me.




            ~Carlos A. Gonzalez
             Director, Medicare Office
                                                                     '~~dent~~~
                                                                      ~~,0,:\ ;        l   v
             (787) 277-6691                                          Triple-S Salud
             carlosg@triples-med.org                                 (787) 749-4080
                                                                     palmodovar@ssspr.com




Triple-S Pension Segmentation (A-07-12-00395)                                                                         18
